                                             September 18, 2002




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General For Audits


SUBJECT:                      MEMORANDUM REPORT: REVIEW OF NRC’S PROTECTION
                              OF SOCIAL SECURITY NUMBERS (OIG-02-A-16)


        The Office of the Inspector General (OIG) has completed a review of the agency’s
        controls over the access, disclosure, and use of Social Security Numbers (SSNs) by
        third parties. This review disclosed a lack of full adherence to agency policy covering
        this area. Specifically,

               •       Required clauses to protect SSNs accessed by contractors were not
                       included in all applicable contracts;

               •       Not all agency systems of records had been included in the Privacy Act
                       records; and,

               •       The controls over duplicate systems of records need to be strengthened.

        At an exit meeting on September 5, 2002, agency officials provided comments which
        have been incorporated into this report, where appropriate.

BACKGROUND

        Since the creation of the SSN, the number of Federal agencies and other entities that
        rely on it has grown beyond the original intended purpose. In 1936, the Social Security
        Administration created a numbering system designed to provide a unique identifier, the
        SSN, for each individual. The Social Security Administration uses SSNs to track
        workers’ earnings and eligibility for Social Security benefits, and as of December 1998,
        391 million SSNs have been issued. Over the years, the SSN has become a “de facto”
        national identifier. Because SSNs are unique identifiers, the numbers provide an
        efficient way to manage records. The expanded use of the SSN provides a tempting
        motive for many unscrupulous individuals to acquire someone else’s SSN and use it for
        illegal purposes.
                                                              Review of NRC’s Protection of Social Security Numbers

         No single Federal law regulates the overall use or restricts the disclosure of SSNs by
         government agencies; however, a number of laws limit SSN use in specific instances.
         Generally, the Federal government’s overall use and disclosure of SSNs are restricted
         under the Freedom of Information Act and the Privacy Act. The Freedom of Information
         Act presumes Federal government records are available upon formal request, but
         exempts certain personal information, such as SSNs.

         The purpose of the Privacy Act is to balance the government’s need to maintain
         information about individuals with the rights of individuals to be protected against
         invasions of their privacy stemming from Federal agencies’ collection, maintenance, use
         and disclosure of personal information about them. Specifically, with regard to collecting
         SSNs, Section 7 of the Privacy Act prohibits any Federal, State or local agency from
         denying an individual any right, benefit, or privilege, provided by law because of the
         individual’s refusal to disclose his social security account number. Section 7 of the
         Privacy Act also requires any agency which requests an individual to disclose his/her
         SSN to inform the individual as to whether the disclosure is mandatory or voluntary, by
         what statutory authority or other authority the request is made, and how the agency will
         use the number.

PURPOSE

         The Chairman of the House Ways and Means Subcommittee on Social Security
         requested the President’s Council on Integrity and Efficiency1 to examine the control
         over SSNs by Federal agencies. The objective of this audit was to assess NRC’s
         controls over the access, disclosure, and use of SSNs by third parties. Specifically, OIG
         determined whether NRC:

         •        Makes legal and informed disclosure of SSNs to third parties;

         •        Has appropriate controls over contractors’ access and use of SSNs;

         •        Has appropriate controls over other entities’ access and use of SSNs; and,

         •        Has adequate controls over access to individuals’ SSNs maintained in its
                  databases.




         1
           The President's Council on Integrity and Efficiency (PCIE), comprised primarily of Presidentially appointed
Inspectors General (IG), accomplishes its mission by conducting interagency and inter-entity audit, inspection, and
investigation projects to promote economy and efficiency in Federal programs and operations and address more
effectively government-wide issues of fraud, waste, and abuse. The Council members also develop policies,
standards, and approaches to aid in the establishment of a well-trained and highly skilled IG workforce.



                                                          2
                                                              Review of NRC’s Protection of Social Security Numbers

RESULTS

         To protect the rights of individuals from invasion of personal privacy, NRC has
         management controls through its policies and procedures to ensure that systems of
         records2 are established and maintained. However, NRC’s protection of personal
         information is weakened by staff failing to follow the agency established policies and
         procedures. Specifically, Privacy Act clauses are not always included in applicable
         contracts, not all applicable NRC records systems are included in Privacy Act systems
         of records3, and the controls over duplicate systems of records need to be strengthened.

                  Privacy Act Clause Not Included In Contracts

         System managers and project officers were unaware that they needed to inform the
         Division of Contracts (DC) when their contractors would work on a system of records.
         As a result, some NRC contracts did not contain the required clauses limiting disclosure
         of personal information. Without the clauses, the provisions of the Privacy Act are not
         binding on the contractor. NRC Management Directive 3.2, Privacy Act requires Office
         Directors and Regional Administrators to provide adequate safeguards for Privacy Act
         records under their control. In addition, DC is required to ensure that contracts contain
         the appropriate clauses when the contract provides for contractors’ access to and use of
         an NRC system of records. To make the provisions of the Privacy Act binding on the
         contractor, and his or her employees, Federal Acquisition Regulation 52.224-1, Privacy
         Act Notification and Federal Acquisition Regulation 52.224-2, Privacy Act clauses must
         be referenced in the contract.

         In August 2001, the Privacy Program Officer, Office of the Chief Information Officer,
         conducted a review of 11 randomly selected agency contracts which provide for the
         maintenance of a system of records. This review is required every two years by the
         Office of Management and Budget to ensure that the wording of each contract makes
         the provisions of the Privacy Act binding on the contractors and his or her employees.
         Only 1 of the 11 contracts contained the required clauses. As a result of this review, DC
         modified the contracts, as necessary, to include the clauses and reminded its staff of the
         requirement for including Privacy Act clauses in contracts. During the conduct of this
         audit, OIG tested two contracts of these 11 and determined that the clauses had been
         added.

         Subsequently, OIG reviewed 10 contracts, including two previously reviewed by the
         Privacy Program Officer, involving systems of records, and found 2 contracts that did
         not include Privacy Act clauses. The required Federal Acquisition Regulation clauses


         2
           A system of records is a group of Privacy Act records under the control of NRC from which information is
retrieved by the name of an individual or by an identifying number.
         3
           The Federal Privacy Act of 1974, as amended (5 U.S.C. 552a), establishes safeguards for the protection of
records the Federal government collects, maintains, uses, and disseminates on individuals and applies when
information is retrieved by personal identifier. A personal identifier can be a number assigned to an individual or the
individual’s social security number.

                                                          3
                                                             Review of NRC’s Protection of Social Security Numbers

        were absent because staff were unfamiliar with the Privacy Act requirements. System
        managers and project officers were unaware that they needed to indicate to DC that the
        contractor would work on a system of records. Consequently, without the system
        manager’s or project officer’s indication, DC contract officers did not recognize the
        requirement for such a clause.

                 Systems Not Included In Privacy Act Systems of Records

        Some NRC systems meet the criteria for Privacy Act systems of records, but have not
        been identified as such. The programmers who developed systems were unaware that
        the systems should be declared Privacy Act records and, therefore, did not inform the
        Privacy Program Officer of the systems’ existence. As a result, NRC has not complied
        with provisions of the Privacy Act which provides individuals with protection from
        invasion of personal privacy.

        According to the Privacy Act, any group of records under the control of an agency,
        where information is retrieved by name or SSN, is a system of records. NRC offices
        develop and maintain systems where the information contained in the systems are
        retrieved by name or SSN. However, one system has not been included in the NRC
        systems of records, and others have not been considered for inclusion in the
        republication of systems of records in the Federal Register.4 OIG identified 10 systems
        developed in offices where information is retrieved by an individual’s name or SSN that
        had not been included in the draft republication. For example, one office developed a
        system to track travel arrangements which contains information retrieved by name or
        SSN, but is not included among the systems of records. There may be other systems,
        not reviewed by OIG, that should be treated as systems of records.

        Management Directive 3.2, Privacy Act describes the organizational responsibilities and
        delegations of authority to implement the Privacy Act. The directive requires Office
        Directors and Regional Administrators to obtain advice and assistance from the Privacy
        Program Officer, as needed, when developing new systems of records or revising
        existing systems of records to carry out the functions of their offices. It also requires the
        Privacy Program Officer to periodically review activities involving systems of records to
        ascertain the level of compliance with the Privacy Act.

        System programmers were unaware that their systems should be declared systems of
        records, therefore, they did not notify the Privacy Program Officer. In some situations,
        the applications were developed to aid the office with administrative record keeping such
        as training and office equipment tracking. Furthermore, the directive does not provide
        specific guidance on the process to be used by the Privacy Program Officer to
        determine whether NRC’s offices have systems that have not been declared systems of
        records. The Privacy Program Officer did not contact individual offices to assess
        whether their systems meet the criteria for systems of records. OIG examined systems


        4
          OMB Circular A-130, Appendix I requires agencies to republish descriptions of their systems of records in
the Federal Register.

                                                         4
                                            Review of NRC’s Protection of Social Security Numbers

at some NRC offices and found systems that met the criteria, but had not been identified
as systems of records.

Without identifying all systems of records, NRC is not in compliance with the Privacy Act
requirements to publish systems of records in the Federal Register. The Privacy Act
states that offenders are subject to criminal penalties and fines up to $5,000 for any
officer or employee of the agency who willfully maintains a system of records without
first publishing a system notice in the Federal Register. In addition, in the event of a
Privacy Act civil lawsuit, the agency, not the contractor, is liable. While OIG did not
identify willful violations of the Privacy Act requirements, the penalties emphasize the
importance of complying with the Privacy Act.

       Controls Over Duplicate Systems of Records

The controls over duplicate systems of records need to be strengthened. A duplicate
system of records is a group of records that are similar to those contained in a primary
system of records. Duplicate systems of records should be maintained the same way
as the primary systems of records. Management Directive 3.2, Privacy Act requires that
the locations of duplicate systems of records be identified in the Federal Register notice
and that system managers maintain records on duplicate systems of records. This
review disclosed that the Federal Register notice only provides limited information about
NRC’s duplicate systems of records. NRC management cannot provide a
comprehensive list of duplicate systems of records. The absence of these controls
weakens the protection of personally identifiable information contained in duplicate
systems of records.

Neither system managers, nor the Privacy Program Officer could provide documentation
that:

•      All duplicate systems of records have been identified; and,

•      Policies and practices regarding storage, retrieval, safeguards and retention, and
       disposal for the duplicate system of records are the same as for the primary
       system of records listed in the Federal Register notice.

Furthermore, the Privacy Program Officer could not provide documentation that a
master list of all duplicate systems of records is maintained.

Sufficient information about duplicate systems of records is not identified in the
Federal Register notice. Guidance does not require that names of duplicate systems of
records be published. Currently, the information about duplicate systems of records
identified in the Federal Register notice is limited to the indication that the duplicate
exists at any one of several NRC street locations. System managers should maintain
records of the names, descriptions and office locations of duplicate systems of records.
A comprehensive list of duplicate systems of records will enhance NRC’s ability to
ensure that adequate protections are afforded over duplicate systems of records. It will
also provide systems managers with a resource to compare the attributes of the

                                        5
                                                Review of NRC’s Protection of Social Security Numbers

    duplicate systems of records with those of the primary systems of records. Such a
    comparison will ensure that system managers exercise measures to protect personally
    identifiable information contained in duplicate systems of record.

CONCLUSION

    Agency employees do not consistently follow NRC policy and the policy should be
    strengthened. NRC’s protection of personal information is weakened by staff failing to
    follow the established policy and procedure. Specifically, Privacy Act clauses are not
    always included in applicable contracts, not all systems of records are included in
    Privacy Act records and the controls over duplicate systems of records need to be
    strengthened.

RECOMMENDATIONS

    We recommend that the Executive Director for Operations:

    1.     Implement a process for system managers and project officers to inform the
           Division of Contracts when their contract requirements involve contractor access
           to NRC systems of records so that Privacy Act Clauses are included.

    2.     Implement measures to enforce established policy regarding system manager
           and project officer responsibilities to inform the Privacy Program Officer of
           systems of records and duplicate systems of records.

    3.     Perform biennial review of NRC offices to determine if all systems of records and
           duplicate systems of records have been identified.

    4.     Develop and maintain a comprehensive list of duplicate systems of records
           under the Privacy Act, including all names, descriptions and office locations of
           these records.

    Please provide information on actions taken or planned on each of the
    recommendations directed to your office by November 1, 2002. Actions taken or
    planned are subject to OIG follow up.

SCOPE/CONTRIBUTORS

    To accomplish the audit objectives, OIG assessed the controls related to the NRC’s
    protection of social security numbers through a questionnaire provided by the
    President’s Council on Integrity and Efficiency. The scope was limited to the objectives
    requested by the President’s Council on Integrity and Efficiency questionnaire. OIG
    conducted interviews in NRC headquarters and regional offices and observed system
    demonstrations in regional offices. This work was conducted from January 2002
    through July 2002, in accordance with generally accepted Government auditing
    standards by Ren Kelley, Beth Serepca, and Vicki Foster.


                                            6
                                                Review of NRC’s Protection of Social Security Numbers

      If you have any questions or concerns regarding this memorandum, please contact
      Ren Kelley, Team Leader, at 415-5977, or me at 415-5915.

cc:   J. Craig, OEDO




                                            7
                                 Review of NRC’s Protection of Social Security Numbers

R. McOsker, OCM/RAM
B. Torres, ACMUI
G. Hornberger, ACNW
G. Apostolakis, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV




                             8
